No. 21-231
JULIE ELLEN WARTLUFT, F/K/A JULIE ELLEN BARTELS;
FREDERICK L. BARTELS, JR., AS ADMINISTRATORS OF THE ESTATE
OF ABRIELLE KIRA BARTELS, DECEASED
Petitioners,
vs.
THE MILTION SCHOOL AND SCHOOL TRUST,
THE HERSHEY TRUST COMPANY, AS TRUSTEE OF
THE MILTON HERSHEY SCHOOL,
Respondents.

CERTIFICATION OF WORD COUNT
As required by Supreme Court Rule 33.l(h), I certify that the Reply to
Response to Petition for a Writ of Certiorari contains 1497 words, excluding the
parts of the Petition that are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

/s/ John W. Schmehl
John W. Schmehl, Esquire
Dilworth Paxson LLP
1500 Market Street
Suite 3500E
Philadelphia, PA 19102
Telephone: 215-575-7200
Email: jschmehl@dilworthlaw.com
Dated: October 1, 2021

Counsel for Petitioners

